1

21-3^

«[

c*

No

ao-7obo

IN THE SUPREME COURT OF THE UNITED STATES /

Jut.
C' ~

MOREH J. BUCHANAN,
Petitioner,

v.
SONY MUSIC ENTERTAINMENT, WARNER MUSIC GROUP
CORP., UMG RECORDINGS, INC., SONY/ATV MUSIC
PUBLISHING LLC, AND UNIVERSAL PICTURES
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for
The District of Columbia Circuit

MOREH J. BUCHANAN
Counsel of Record
10153 Royal Dr.
St. Louis, Missouri 63136

314.412.8589 voice
morehbuchanan@vahoo.com
Counsel for Petitioner

RECEJVED
SEP - 8 2021
OFFICE OF THE CLERK
SUPREME COURT, U S

KECEiVKD
\

AUG - 6 2021

gsasrjssftg&

COPYRIGHT CASE
QUESTIONS PRESENTED
Petitioner is a songwriter, music publisher, singer /rapper, artist/composer that
wrote, produced and recorded 5 in particular original demo/demonstration rap
songs. These 5 (five) songs were distributed to the respondents, various music
industry professionals, including an Atlanta entertainment lawyer, throughout the
music industry. This lawyer, has even testified before Congress. Furthermore,
Petitioner's 5 songs were copied on 62 other songs and a major motion picture
franchise, resulting in massive success and profits for the respondents.

U.S. District Court for the District of Columbia Judge Ketanji Brown Jackson was
assigned to Petitioner's case when it was filed in 2018. Judge Jackson dismissed
Petitioner's (jury demanded requested trial), filed case, in 2020, without
prejudice. Petitioner filed an appeal in 2020, to the U.S. Circuit of Appeals for the
District of Columbia Circuit. The Circuit erred upon the merits of Petitioner's
meritorious claims for relief. In particularly, regarding the facts affirming the
leading issue that there was a particular chain of events that show access of
Petitioner's songs, and that demonstrate that the 5 songs were widely
disseminated throughout the music industry. Also, the direct evidence statement
from the 1997 issue of the popular magazine entitled The Source. This statement
was made by the Hollywood actor/ Columbia Records rap artist "Will Smith,"
regarding flipping concepts.

i

i

i

TABLE OF CONTENTS

QUESTIONS PRESENTED

ii

TABLE OF CONTENTS

iii

TABLE OF AUTHORITIES

iv

BUCHANAN V. WILL SMITH/COLUMBIA RECORDS (1998)

v

BUCHANA V. DAVID MCPHERSON/EPIC RECORDS (2002)

V

i
I

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

FEDERAL AND STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

1-4

REASON FOR GRANTING THE WRIT.

4

CONCLUSION

.4

APPENDIX.

5

CERTIFICATE OF SERVICE

6

iii

TABLE OF AUTHORITIES

Dred Scott v. Sanford (1857)
Sellev. Gibbs

(1984)

Satriani v. Coldplay

(2008)

Bright Tunes Music v. Harrisongs Music 420 F. Supp.177 (S.D.N.Y., 1976)
Jones v. Blige 558 F. 3rd 485, 491 (6th Cir. 2009)
Sturdza v. United Arab Emirates 281 F. 3d 1287,1295 (D.C. Cir, 2002)
Towler v. Sayles, 76 F. 3d579, 583, (4th Cir. 1996)
Bouchat v. Baltimore Ravens, Inc. 9 Jeffreys S Moorad Sports LJ. 97 (2002)
Scott Blanton v. universal City Studios Prods. LLLP (D.C. Cir 2009)
FEDERAL STATUTES
17 U.S.C. 106(1) (2) (3)
17U.S.C. 501
17 U.S.C. 201
17 U.S.C. 408
17 U.S.C. 411(a)
17 U.S.C.410(c)
17 U.S.C. 114
RULES
U.S. Supreme Court Rule 10.
OTHERS
Buchanan v. Will Smith/Columbia Records- complaint (1998)
Buchanan v. David McPherson/Epic Records, Eastern District of Missouri. Jean Hamilton. (2002)

IV

BUCHANAN V. WILL SMITH/COLUMBIA REOCRDS (1998)

This case was a 1998 complaint brought forth from Moreh J. Buchanan to his Atlanta lawyer
E. Earle Burke regarding copyright Infringement. After watching Black Entertainment Television
and Music Television, Buchanan noticed similarities of his copyrighted songs I Gos Ta Roll and
Cornin' Tight and Smith's versions of Just Crusin' on the Men in Black motion picture sound
track and Getting Jiggy Wit It on the Big Willie Style album. Buchanan contacted Burke to file a
complaint and lawsuit. Burke contacted Columbia Records.
Buchanan paid Burke $1,500 for a music comparison of the 4 works. Burke contacted
musicologist Judith Finnell. Finned's first reaction to Burke was "I hear money!" Finnell claimed
there was only 1 similar word. Buchanan found over 80. Burke did not file a lawsuit on
Buchanan's half. Burke then abandoned Buchanan on a record deal with Universal and stalled
and flat out lied to Buchanan for over the next 2 years. Burke and Buchanan had a falling out.
Burke told Buchanan "Long Dollars is what's going on!"
BUCHANAN V. DAVIS MCPHERSON/EPIC RECORDS (2002)
This was an actual civil lawsuit filed in the Eastern District Court of St. Louis, in 2002. Judge
Jean Hamilton read the briefings. Buchanan and McPherson both from St. Louis, were best
friends in middle and high school. They spoke by telephone and kept in touch. McPherson
traveled to New Jersey and interned for a music executive in Manhattan, New York. McPherson
told Buchanan that he had achieved his success, not by merit, but by an interning opportunity
offered to him from a happy gentleman and music executive at Mercury Records. It was
through this fawn hustle that McPherson was granted an executive Vice President position of
A&R. Unlike Buchanan, who was suffering in torment year after year, from dealing with his
Atlanta music relatives.
Buchanan asked McPherson if he could send him his music with the hope of McPherson
signing him. McPherson listened to Buchanan's music but did not sign him. Buchanan later
noticed similarities of his songs from another music artist song that McPherson had signed. And
that artist had sold 4 million copies. Buchanan called McPherson and told him of the copyright
Infringement. McPherson would no longer take Buchanan's calls. Buchanan sued in the Eastern
District Court of Missouri. Having no legal experience, Buchanan became overwhelmed with the
stress of representing himself and withdrew, and dismissed the lawsuit. McPherson counter
sued Buchanan for court cost and legal fees of over $8,000. Judge Jean Hamilton denied
McPherson request.

v

PETETION FOR WRIT OF CERTIORARI
Moreh J. Buchanan petitions the court for Writ of Certiorari to review the February 5, 202^_
judgement of the United States Court of Appels For The District of Columbia Circuit, No. 207060.
OPINION BELOW
The United States Court of Appeals For The District Of Columbia Circuit published opinion
denying Petitioner's appeal, No. 20-7060. In accordance with the judgement of February 5,
2021, and pursuant to Federal Rule of Appellate Procedure 41, that constitutes formal mandate
of the court.
JURISDICTION/FEDERAL AND STATUTORY PROVISIONS
The District of Columbia Circuit entered judgement on February 5, 2021. This Petition is
timely filed pursuant to Supreme Court Rule 13.1. This court has jurisdiction under Article 111
Section 2, 28 U.S.C. 1251&1254(1). Provisions involved are at 17 U.S.C. 106, 17 U.S.C. 501,17
U.S.C. 201, 17 U.S.C. 408, 17 U.S.C. 411(a), 17 U.S.C. 410(c). D.C. Circuit Rule 28(a) (1) (c) and
Federal Rule of Appellate Procedures 26.1.
STATEMENT OF THE CASE
This petition arises from a copyright infringement claim made by an American songwritermusician named Moreh J. Buchanan. On December 19, 2018, Buchanan filed the instant lawsuit
in the U.S. District Court for the District of Columbia. Buchanan had pursued a music career for
more than 30 years beginning in his high school years. Buchanan selected this location because
of his oppression, persecution, and poverty, as he was inspired by the actions of the late Rev.
Dr. Martin Luther King Jr, whom had represented millions of African Americans in their struggle
for freedom, equality, and civil rights within the U.S.A.
District Judge Ketanji Brown Jackson was assigned to Buchanan's case. Buchanan named four
music record companies and one film movie studio, as defendants, under the copyright Act 17
U.S.C. 501, 504(c), negligence and strict liability. Judge Jackson granted defendants motion to
dismiss, without prejudice on May 26, 2020.
Buchanan appealed to the court of appeals for the District of Columbia Circuit. On February
5, 2021 the court affirmed the lower District Courts order. The inferior courts affirmation
appears not just erroneous, but outlandishly so.

1

Buchanan did in fact state a claim, and has proved a reasonable inference of access and
striking similarities. Buchanan's songs I Gos Ta Roll and Cornin' Tight were both previously
registered with the library of Congress in 1998. The other three songs Gangsta Bass, Zombie
Beat and Krazy Bad, (all three from his 1993 album The St. Louis Rhyme Slayer), were also
registered with the library of Congress in July, 2019. Attempts were made in the disguise of
mistakes and mishaps to prevent Buchanan from registering this copyright document that
summer. See 17 U.S.C. 106 (1) (2) (3), 502, 201, 408, 411(a), 410(c), and 114.
The songs Gangsta Bass, Krazy Bad, and Zombie Beat were validly published by Buchanan
beginning in 1991 through Missouri State Articles of Incorporation, registration of Buchanan's
record label, local radio station airplay, retail outlet sales in music stores, and local
performances by Buchanan in night clubs. The copyright symbol was placed upon the songs.
See Bright Tunes Music v. Harrisongs Music (1976). Zombie Beat was also again published and
copyrighted and re-released on line, in the new 21st century digital age, by Buchanan on his
record label. See Bouchat v. Baltimore Ravens Inc. (2002).
In 1991 Buchanan traveled from St. Louis to Atlanta to meet his famed music relative, the
late Curtis Mayfield. Curtis Mayfield introduced Buchanan to his son, and Buchanan's cousin
Todd. Buchanan presented his music to the Mayfield's whom owed the Curtom/Conquest
music record labels. Buchanan spent the next 6 year of his life presenting demo songs to the
Mayfield family. See Satriani v. Coldplay (2008). By 1997, the conquest label failed. Buchanan
was never signed to any contract with Curtis Mayfield or other family members. However,
Curtis Mayfield did like Buchanan and invited him into an Atlanta recording studio in 1996, and
asked Buchanan to sing background vocals on a song track off Curtis Mayfield's Warner Music
Group album. See Jones v. Blige (6th cit. 2009)
Buchanan continued to search for a record deal and worked with a prominent entertainment
lawyer name E. Earle Burke. See Towler v. Sayles (1996). Burke submitted Buchanan's 5 demo
songs to the Vice Presidents and A&R departments at Sony Music, Sony ATV, MCA/Universal,
UMG/Universal Pictures, and Warner Music Group. See Scott- Blanton v. Universal City Studios
Prods. LLLP (D.C. Cir. 2009) and Sturdza v. United Arab Emirates, (D.C. Cir 2002). Burke opted to
have Buchanan contract with UMG/Universal Pictures. Burke told Buchanan the corporate
labels were restructuring. While waiting to sign, Buchanan stumbled upon the 1997 Source
magazine interview from Will Smith. See Bouchat v. Baltimore Ravens (2002).
Buchanan asked Burke to file a copyright infringement lawsuit over his song I Gos Ta Roll v.
Smith's copied/flipped version Just Crusin', and Buchanan's song Cornin' Tight v. the copied/
flipped Getting' Jiggy Wit It. See Sturdza v. United Arab Emirates, (D.C. Cir 2002). Burke did not
file a claim. Buchanan received an intimidating threatening bully statement letter from Will
Smith through Beverly Hills, Ca lawyer Kenneth Hertz. This letter was by no means a cease and
desist. In fact, Hertz stated that they were not prejudice towards him, leading Buchanan to
believe that Will Smith had admitted to wrong doing.
2

By 1999-2000, Burke admitted that he was receiving "long dollars", and had completely
abandoned Buchanan. See Selle v. Gibbs (1984). Burke and Buchanan had a falling out. See
Buchanan v. Will Smith/Columbia Records (1997). The restructured Universal Motown label had
signed another hometown local rapper from St. Louis, in Buchanan's place. Nelly's album
country grammar, had infringed on Buchanan's song Krazy Bad and his album, The St. Louis
Rhyme Slayer. Along with, imitating comedy skits Buchanan had used on The St. Louis Rhyme
Slayer. Having local comedian Cedrick the Entertainer on country grammar, as Buchanan had
conversed and discussed in (1992) person, and over the phone with Cedrick, "The Entertainer"
Kyles, (about being an opening act for Buchanan in concert in St. Louis at a local club) years
prior to the Universal contract signing of Nelly.
Beginning in 1992-2002, Buchanan had mailed his 5 demo songs to his former high school
best friend named David McPherson. McPherson had become a Vice President at Sony Music
Entertainment and had signed artists such as Joe Thomas, Mandy Moore, Ruff Endz, and
Backstreet Boys. See Buchanan v. McPherson/Epic Records Eastern District of Missouri (2002).
Buchanan distributed his 5 (five) original songs to Sony Music Entertainment, Sony/ATV
Music publishing LLC, Warner Music Group Corp, Universal Music Group/ UMG Recordings Inc.,
and Universal pictures between 1992-1997. The respondents/defendants engages in 62
individual acts of copyright infringement. 57 of these songs were discovered during the time
duration of the December, 2018 filing in District court. 4 other songs were discovered before
the court of appeals filing. At present, there has been one new song of discovery. This song at
the time of this Supreme Court Writ, is the 2003 platinum song entitled "I don't want to be"
recorded by J Records artist Gavin DeGraw, from the platinum album Chariot. This song
infringes upon Buchanan's song I Gos Ta Roll. The original guitar solo melody at the end of I Gos
Ta Roll, starting at 4:37 seconds, and ending at 4:39 seconds, is looped continuously from start
to finish in the song I don't want to be. As this is copyright infringement. Buchanan should
receive and be granted credit for the discovery.
Buchanan is at times embarrassed at the slow progress of his life. However, he remains
steadfast and believes that truth will set him free someday, and end his long suffering poverty.
He longs for the American dream and his pursuit of a music career. Whether or not human
history repeats itself, in some sense may be a matter of personal human opinion and
perspective. Buchanan thinks that there are eerie similarities between his life and a famous
case of the nineteenth century. See Dred Scott v. Sanford (1857).
Buchanan is considered a low income poor black man of European/African ancestry. He is from
the state of Missouri and was born into poverty. Buchanan represents himself pro se in this
Writ, and the district and court of appeals, to the best of his ability, without having any higher
legal education or training.
3

Although Buchanan can read, write, and spell, (because of the physical abolishment of U.S.
slavery and the civil right movement) he was denied motion to appoint counsel request, before
the District of Columbia Appeals Circuit court judges: Pillard, Katsas and Walker. Dred Scott was
an enslaved Missouri black man, whose master/owner transported him from the slave holding
state of Missouri, into the free Illinois and Wisconsin U.S. territories. See Scott v. Sanford
(1857).
Similar to Dred Scott, Buchanan traveled from Missouri to Georgia of his own free will in
search of career help. Buchanan presented his music to his wealthy black African relatives.
Having much merit, Buchanan was denied his freedom and success into the American society
music industry. Buchanan was further fully exploited by having his published and copyrighted
songs infringed by the respondents/defendants. Buchanan's contributions to the entire world
music industry and whole American society has resulted in sales, revenue and profits in excess
of hundreds of billions of dollars. Simply put, Buchanan is a priceless gem, an American treasure
of talent and personality.
REASON FOR GRANTING THE WRIT
This court's intervention is necessary to resolve a conflict. This conflict calls for an exercise of
the court's supervisory power. A U.S. court of appeals had decided an important question of
federal law that has not been, but should be settled by this Supreme Court. For this case echoes
one of national importance, that screams merit, merit, merit, bloody merits based!

CONCLUSION
For the foregoing reasons, Mr. Buchanan respectfully request that this Court issue a Writ of
Certiorari to review the judgement of the Court of Appeals for the District of Columbia Circuit.
DATED this 24th day of June, 2021.
Respectfully submitted,

Moreh J. Buchanan^Counsel of Record
10153 Royal Dr. St. Louis, Missouri 63136
(314)412-8589E-Mail:morehbuchanan@yahoo.com
4

